 Audit Report




 OIG-14-035
 OCC Needs to Strengthen Supervison of Trading Activities in
 Light of the JPMorgan Chase Losses
 May 14, 2014




Office of
Inspector General
Department of the Treasury

This report has been reviewed for public dissemination by the Office of Counsel to
the Inspector General. Information requiring protection from public dissemination
has been redacted from this report in accordance with the Freedom of Information
Act, 5 U.S.C. §552.
Contents


Audit Report
 Results in Brief ............................................................................................... 1

 Background .................................................................................................... 4

 Findings ......................................................................................................... 5

   OCC’s Supervisory Response to the Chief Investment Office’s Poor
   Risk Management and Increasing Risk in the Synthetic Credit Portfolio
   Was Insufficient............................................................................................5
   OCC Should Improve Coordination of Its Dual Regulatory
   Responsibilities with FRB ............................................................................. 11
   The Comptroller’s Handbook Lacks Comprehensive Examiner Guidance
   for Supervision of Trading Activities .............................................................. 12
   Other Matter .............................................................................................. 12

 Recommendations..........................................................................................13


Appendices
 Appendix     1:   Objectives, Scope, and Methodology .............................................17
 Appendix     2:   Management Comments ...............................................................18
 Appendix     3:   Major Contributors to This Report ..................................................21
 Appendix     4:   Report Distribution .......................................................................22


Abbreviations
 CDO                    collateralized debt obligation
 CIO                    Chief Investment Office
 FDIC                   Federal Deposit Insurance Corporation
 JPMC                   JPMorgan Chase Bank, N.A.
 EIC                    examiner-in-charge
 FRB                    Board of Governors of the Federal Reserve System
 MRA                    matter requiring attention
 OCC                    Office of the Comptroller of the Currency
 SCP                    Synthetic Credit Portfolio
 VaR                    Value at Risk


                        OCC Needs to Strengthen Supervision of Trading Activities in Light of         Page i
                        the JPMorgan Chase Trading Losses (OIG-14-035)
Contents




                     This page intentionally left blank.




           OCC Needs to Strengthen Supervision of Trading Activities in Light of   Page ii
           the JPMorgan Chase Trading Losses (OIG-14-035)
                                                                                                Audit
OIG
The Department of the Treasury
                                                                                                Report
Office of Inspector General

Audit Report




                        May 14, 2014

                        Thomas J. Curry
                        Comptroller of the Currency

                        This report presents the results of our audit of the Office of the
                        Comptroller of the Currency’s (OCC) supervision of bank trading
                        activities. This audit was prompted by the media attention and
                        congressional hearings focused on the 2012 trading losses at the
                        JPMorgan Chase Bank, N.A. (JPMC) Chief Investment Office (CIO)
                        in London.

                        Our audit objective was to determine and assess OCC’s process of
                        supervising bank trading activities, primarily focusing on OCC’s
                        supervision of trading activities at the JPMC CIO. We interviewed
                        OCC personnel involved in supervising these activities and
                        reviewed relevant OCC documentation during audit fieldwork
                        conducted from July 2012 through January 2013. Appendix 1
                        contains a more detailed description of our objectives, scope, and
                        methodology.

Results in Brief
                        We found that OCC had many opportunities to address
                        weaknesses in the CIO’s risk management of trading activities, but
                        did not act strongly or timely enough to address those weaknesses.
                        In some cases, OCC failed to act at all. Specifically, OCC did not
                        (1) follow up on a 2010 matter requiring attention (MRA) 1
                        regarding the CIO’s lack of risk management policies, (2) follow up

1
    An MRA is a bank practice identified during an examination that deviates from sound governance,
    internal control, and risk management principles, which may adversely affect the bank’s earnings or
    capital, risk profile, or reputation if not addressed. It may also result in substantive noncompliance
    with laws and regulations, internal policies or processes, OCC supervisory guidance, or conditions
    imposed in writing in connection with the approval of any application or other request by a bank. In
    some circumstances, a matter requiring attention could also be an unsafe or unsound practice.
    OCC’s expectation is that bank management will act upon the MRA.


                        OCC Needs to Strengthen Supervision of Trading Activities in Light of      Page 1
                        the JPMorgan Chase Trading Losses (OIG-14-035)
                        on concerns it had with the CIO internal audit function; and
                        (3) appropriately address signs of increasing risk in the Synthetic
                        Credit Portfolio (SCP). 2 We believe that a stronger, timelier OCC
                        response to these weaknesses may have limited the losses.

                        Further, we determined that (1) the Comptroller’s Handbook lacked
                        comprehensive guidance on supervision of bank trading activities
                        and (2) OCC’s coordination of its dual supervision responsibilities
                        with the Board of Governors of the Federal Reserve System (FRB)
                        needs improvement. We also include one matter regarding OCC’s
                        London office.

                        We recommend that OCC take the following actions:

                            1. Ensure that examiners review bank reports and obtain
                               satisfactory explanations when those reports show
                               significant signs of increasing risk in trading activities.

                            2. Amend OCC policies and procedures to clarify that
                               examiners should follow up on MRAs no later than during
                               the next supervisory cycle, or sooner as dictated by the
                               urgency of the examination finding.

                            3. Ensure that examiners follow up on findings or concerns
                               with a bank’s internal audit office and expand the review of
                               the internal audit function, as necessary, to determine its
                               effectiveness.

                            4. Improve supervisory coordination with other regulatory
                               agencies and consider formalizing any understanding or
                               agreement.

                            5. Ensure that revisions to the Handbook for supervision of
                               trading activities communicate to examiners all activities
                               required to be performed during both ongoing supervision
                               and targeted examinations.


2
    The SCP was a portfolio of credit derivatives that grew to have a large and complex set of risks.
    Credit derivatives are financial contracts designed to hedge credit-risk exposure by providing
    insurance against losses suffered through credit events, such as downgrade by a rating agency
    below a specified minimum level, bankruptcy or insolvency by the obligor, or default on payment
    obligations.


                        OCC Needs to Strengthen Supervision of Trading Activities in Light of   Page 2
                        the JPMorgan Chase Trading Losses (OIG-14-035)
                       Management Response In a written response, included as
                       appendix 2, OCC stated that it undertook a two-pronged review of
                       its supervisory activities in response to the events at JPMC. The
                       first prong focused on an informed evaluation of the adequacy of
                       current risk controls at the bank. OCC assessed the quality of
                       management and risk management; board oversight; the types and
                       reasonableness of risk measurement metrics and limits; the model
                       governance review process; and the quality of work by the
                       independent risk management team and internal auditors. OCC also
                       assessed the adequacy of the information and reporting provided to
                       bank management and to OCC. This review resulted in the OCC
                       entering into a consent order with JPMC to correct unsafe and
                       unsound practices and violations of law or regulation related to
                       derivatives trading activities conducted on behalf of the bank by
                       the CIO. The OCC also assessed a $300 million civil money
                       penalty.

                       The second prong addresses trading activities more broadly and
                       draws on the lessons learned from this event that could enhance
                       risk management processes at other banks. Consistent with
                       supervisory policy of heightened expectations for large banks, OCC
                       is demanding that banks adhere to the highest risk management
                       standards. OCC is also assessing the adequacy of risk management
                       throughout the bank. If corrective action is warranted, OCC will
                       pursue appropriate informal or formal remedial measures.
                       Additionally, OCC is identifying ways to improve its supervision.

                       OCC also stated that it has issued procedures 3 that supplement the
                       Comptroller’s Handbook for end-user derivatives and trading
                       activities that address many of our recommendations. These
                       supplemental procedures include scope-setting and ongoing
                       monitoring procedures. As part of its roll-out of the supplemental
                       procedures, OCC stated it will issue a supervisory memo to all
                       examiners that communicates its expectations about their use. In
                       regard to the recommendation to improve supervisory coordination
                       with other regulatory agencies, OCC stated it has instituted a
                       number of actions including making interagency coordination a

3
    Auditor’s Note: The procedures referenced in the response were issued as an attachment to OCC
    Bulletin 2014-8 titled End-User Derivatives and Trading Activities: Supplemental Examination
    Procedures (Mar. 24, 2014).


                       OCC Needs to Strengthen Supervision of Trading Activities in Light of   Page 3
                       the JPMorgan Chase Trading Losses (OIG-14-035)
                        priority and working with FRB and the Federal Deposit Insurance
                        Corporation (FDIC) to coordinate supervisory strategies in large
                        bank supervision. OCC also stated in some cases, it has entered
                        into memoranda of understanding with other agencies to formalize
                        the understandings for sharing information and coordinating
                        supervision.

                        OIG Comment We consider the actions taken and planned by OCC
                        as responsive to our recommendations.

Background
                        Bank trading activities are defined as the buying or selling of
                        securities, financial instruments, or commodities on behalf of
                        customers or the bank’s own account. Trading account assets
                        owned by the bank are segregated from the bank’s investment
                        portfolio, which includes trading account assets managed on behalf
                        of customers.

                        OCC’s capital-markets teams are responsible for the supervision of
                        bank trading activities at JPMC and other large banks. 4 The teams
                        conduct both ongoing supervision and targeted examinations.
                        Ongoing supervision includes regular monitoring of the bank’s
                        trading activities to assess risk and management’s control of that
                        risk. The size of the teams varies. Some examiners on capital-
                        market teams have prior trading experience at large banks.

                        OCC conducts targeted examinations on specific trading desks or
                        areas perceived to have the highest level of risk. During targeted
                        examinations, OCC examiners perform walk-throughs of bank
                        trading activities, testing of data integrity, valuation, and risk
                        management; and meet with bank traders, risk managers, internal
                        audit personnel, and other senior management. Each examination
                        results in a report or supervisory letter that may include findings on
                        risk, violations of laws or regulations, MRAs, and
                        recommendations. Typically, the capital-markets teams complete
                        four to six targeted examinations per year.



4
    Large banks include the largest national banking companies that generally are involved in the most
    complex activities and operate over wide geographic areas.


                        OCC Needs to Strengthen Supervision of Trading Activities in Light of   Page 4
                        the JPMorgan Chase Trading Losses (OIG-14-035)
                      JPMC performs a number of trading activities, including debt and
                      equity underwriting; market making and trading of fixed income
                      and equity investments, derivatives, and commodities; corporate
                      lending; and principal investing. The CIO is a management unit of
                      the JPMC Bank Holding Company used to manage JPMC’s
                      exposure to various risks and to invest cash for JPMC. The SCP
                      was used to provide protection to JPMC from credit risk. The CIO
                      did not trade on behalf of bank customers.

                      Beginning in January 2012, the SCP experienced large losses. In
                      trying to counteract the losses, the CIO executed a flawed strategy
                      to reduce exposures by doubling the size of the positions in the
                      SCP twice, quickly and dramatically increasing the size of the
                      portfolio. This strategy failed, resulting in losses of approximately
                      $6 billion.

                      As of the date of this report, various agencies, including the
                      Treasury Inspector General’s Office of Investigations, had open
                      cases related to JPMC and its trading activities. In addition, the
                      U.S. Senate Permanent Subcommittee on Investigations conducted
                      an investigation and issued its final report on the CIO trading losses
                      in March 2013. 5

Findings
                      OCC’s Supervisory Response to the Chief Investment
                      Office’s Poor Risk Management and Increasing Risk in the
                      Synthetic Credit Portfolio Was Insufficient
                      OCC had many opportunities to respond to JPMC CIO’s poor risk
                      management and escalating risk in the SCP, but did not act
                      strongly or timely enough to address its concerns and, in some
                      instances, failed to act at all. As early as 2010, OCC examiners
                      identified deficiencies in the CIO’s risk management policies and
                      internal audit function. However, the examiners did not follow up
                      to ensure that the CIO corrected the problems. Further, examiners
                      did not seek explanations for the significant and unprecedented
                      SCP gains in 2011 and losses in early 2012. This sequence of

5
    U.S. Senate Permanent Subcommittee on Investigations, “JPMorgan Chase Whale Trades: A Case
    History of Derivatives Risks and Abuses,” Mar. 15, 2013.


                      OCC Needs to Strengthen Supervision of Trading Activities in Light of   Page 5
                      the JPMorgan Chase Trading Losses (OIG-14-035)
events shows a breakdown in risk management, controls, and
supervision.

A more in-depth discussion of the identified deficiencies and OCC’s
response follows.

Lack of Risk Management Policies in CIO

OCC’s Large Bank Supervision booklet states that, as an
organization grows more diverse and complex, the sophistication of
its risk management must keep pace. Further, it calls for banks to
establish and communicate risk limits through policies, standards,
and procedures that define responsibility and authority, specifying
that these limits should serve as a means to control exposures to
the various risks associated with the bank’s activities. OCC’s
Policies & Procedures Manual (OCC PPM 5310-3) states that bank
corrective action should deal with weaknesses at an early stage,
before they can develop into more serious problems. Corrective
action may involve securing management and board commitments
to undertake specific remedial measures to address OCC’s
concerns. It also states that once a bank has begun taking proper
actions to correct problems and prevent further deterioration, OCC
will follow up to ensure the success of such measures.

In July 2010, OCC conducted an examination of the CIO’s
investment portfolios. [REDACTED – FOIA EXEMPTION 8, 5 U.S.C.
§552(b)(8)]




OCC Needs to Strengthen Supervision of Trading Activities in Light of   Page 6
the JPMorgan Chase Trading Losses (OIG-14-035)
                       Because OCC did not address CIO’s unsatisfactory response to the
                       MRA and did not follow up on compliance with the MRA, it did not
                       learn that risk management in the CIO continued to remain weak,
                       with very little oversight. This weak risk management allowed SCP
                       exposures to grow to an unmanageable level, which led to the $6
                       billion trading loss.

                       OCC officials told us that the standard operating procedure used by
                       examiners to address MRAs during large bank supervision will be
                       revised to improve the tracking, documentation, and timeliness of
                       follow-up actions.

                       Weak Internal Audit Function at CIO

                       OCC’s Large Bank Supervision booklet states that examiners
                       should evaluate and validate the bank’s internal audit function as
                       part of the core assessment 6 to determine, based on a review of
                       the core assessment factors, whether it is strong, satisfactory, or
                       weak. Examiners may identify significant auditor control
                       discrepancies or weaknesses, or may raise questions about the
                       audit function’s effectiveness after completing the core
                       assessment. In those situations, examiners should consider
                       expanding the scope of the review of internal audit.

                       [REDACTED – FOIA EXEMPTION 8, 5 U.S.C. §552(b)(8)]




6
    The supervisory framework for large banks includes a core assessment, which provides the
    standards and procedures for OCC examiners to use to meet the requirements of a full-scope, on-site
    examination. Examiners use the core assessment and the risk assessment system (RAS) to measure
    and assess existing and emerging risks in large banks. This risk assessment drives supervisory
    strategies and activities.


                       OCC Needs to Strengthen Supervision of Trading Activities in Light of   Page 7
                       the JPMorgan Chase Trading Losses (OIG-14-035)
                      OCC did not address these internal audit weaknesses in the CIO by
                      expanding the scope of its review of internal audit or issuing an
                      MRA. Examiners told us they were planning to review the CIO
                      internal audit function again during the next supervisory cycle in
                      2012. We believe OCC’s insufficient supervisory response to CIO’s
                      internal audit office contributed to a weak risk management
                      function continuing in the CIO. If internal audit in the CIO had been
                      stronger, issues with the SCP trading desk may have been
                      highlighted earlier, and adequate risk management policies and
                      procedures may have been put in place.

                      Increasing Risk in SCP

                      In addition to evidence of poor risk management in the CIO prior to
                      the 2012 trading losses, OCC examiners had access to bank
                      reports that showed evidence of increasing risk in the SCP.

                      [REDACTED – FOIA EXEMPTION 8, 5 U.S.C. §552(b)(8)]


                                7




                                                                   8




                                                     9




7
    [REDACTED – FOIA EXEMPTION 8, 5 U.S.C. §552(b)(8)]


8
    [REDACTED – FOIA EXEMPTION 8, 5 U.S.C. §552(b)(8)]


9
    [REDACTED – FOIA EXEMPTION 8, 5 U.S.C. §552(b)(8)]


                      OCC Needs to Strengthen Supervision of Trading Activities in Light of   Page 8
                      the JPMorgan Chase Trading Losses (OIG-14-035)
                       [REDACTED – FOIA EXEMPTION 8, 5 U.S.C. §552(b)(8)]




                                                          10                 11




10
     [REDACTED – FOIA EXEMPTION 8, 5 U.S.C. §552(b)(8)]
11
     [REDACTED – FOIA EXEMPTION 8, 5 U.S.C. §552(b)(8)]


                       OCC Needs to Strengthen Supervision of Trading Activities in Light of   Page 9
                       the JPMorgan Chase Trading Losses (OIG-14-035)
[REDACTED – FOIA EXEMPTION 8, 5 U.S.C. §552(b)(8)]


                                                         In
addition, in January 2013, OCC issued a cease and desist order
(C&D order) to JPMC. The C&D order required JPMC, among other
things, to submit an acceptable written plan to ensure that the
board of directors has appropriate oversight and governance of the
SCP trading.

We believe that OCC took appropriate action after the SCP trading
losses became public, but it should have acted stronger and
timelier to address CIO’s poor risk management and the increasing
risk in the SCP prior to May 2012. For example, evidence of a
weak internal audit function should have warranted more scrutiny
and an MRA, if necessary. Multiple instances of management
approval of limit excessions should have also raised doubt about
the quality of the CIO’s risk management function. However, OCC
did not sufficiently address these deficiencies, which contributed to
the buildup of SCP positions that led to significant trading losses.

OCC conducted an internal review of its supervision of the CIO and
of the JPMC losses, reporting its findings in October 2012. We
reviewed the OCC report, which is not publicly available. OCC’s
findings are consistent with our conclusions. The OCC report noted
that (1) OCC did not recognize the extent of SCP risk and its
potential for such large losses, despite opportunities to become
aware of the risk through JPMC reporting available to examiners;
and (2) OCC examiners could have followed up more diligently with
regard to the 2010 CIO MRA and 2012 VaR model discussed
above. We note that the OCC report concluded that the CIO
management was not forthcoming to OCC examiners about its SCP
strategy. While the report did not include recommendations, it did
include lessons learned that stated, among other things, examiners
should (1) review desk level risk and performance reports to check
that executive and corporate level reporting does a good job of
summarizing important information, and to evaluate the adequacy
of that reporting; (2) investigate outsized gains similar to the SCP
windfall gain in November 2011; and (3) assign target dates for
closing MRAs and follow up on MRAs with deadlines.



OCC Needs to Strengthen Supervision of Trading Activities in Light of   Page 10
the JPMorgan Chase Trading Losses (OIG-14-035)
OCC Should Improve Coordination of Its Dual Regulatory
Responsibilities with FRB
In accordance with 12 CFR 211, a depository institution may
organize or acquire a separate subsidiary to engage in international
banking activities as an Edge Act corporation (Edge entity).
Congress authorized banks to establish subsidiaries under the Edge
Act principally to encourage foreign trade and to permit banks to
engage in activities that are not permissible under U.S. banking
regulations. Under federal law, FRB licenses and regulates JPMC’s
holding company and Edge entities. OCC regulates JPMC’s national
bank.

OCC’s Large Bank Supervision booklet states that effective
planning for all large companies requires adequate and timely
communication among supervisory agencies, including functional
regulators. The regulatory authority over the activities carried out
by the CIO is divided and overlapping. This is because the CIO is a
management unit of the holding company with its holdings booked
in various legal entities including the national bank and Edge
entities. The trading activities that caused the losses in the SCP
were originally booked in the national bank. At the end of each
month, the bank transferred these positions from its books to the
books of a subsidiary of an Edge entity, which is regulated by FRB.
According to OCC examiners, this is a common practice, intended
to transfer risk from the national bank to the Edge entity. OCC
examiners stated that they did not know FRB’s requirements for
supervising Edge activities, or whether FRB reviewed these month-
end accounting transactions.

Opportunities exist for improved communication and coordination
between OCC and FRB regarding supervisory activities. Dual
supervision without proper coordination and communication may
lead to lapses in supervision or duplication of supervisory efforts.
An OCC official told us that the Comptroller has undertaken an
initiative to improve coordination with other agencies, and JPMC is
part of the pilot effort.




OCC Needs to Strengthen Supervision of Trading Activities in Light of   Page 11
the JPMorgan Chase Trading Losses (OIG-14-035)
The Comptroller’s Handbook Lacks Comprehensive
Examiner Guidance for Supervision of Trading Activities
The Comptroller’s Handbook states that it contains the most
current concepts and procedures for the examination of national
banks, and is designed to provide examiners and their managers
with the information necessary to plan and coordinate an
examination, monitor problems or other conditions, and implement
appropriate follow up.

As described in the background section of this report, OCC capital-
markets teams perform both ongoing supervision and targeted
examinations of bank trading activities. We noted that the
handbook has procedures for examiners to follow during targeted
examinations of specific trading activities, such as derivatives, but
it does not provide comprehensive examiner guidance for ongoing
supervision or for targeted examinations of trading activities. When
asked, OCC examiners said they rely on judgment rather than a set
of procedures or checklists when supervising bank trading
activities.

Given the amount of risk and complexity surrounding bank trading
activities, we believe it is important that OCC provide examiners
both guidance and expectations regarding the supervision of those
trading activities. Using judgment alone in determining how to
supervise trading activities may result in underestimating the level
of risk within a bank’s line of business or specific trading desk.

According to an OCC official, the Chief National Bank Examiner’s
office is revising the Comptroller’s Handbook to clarify
expectations regarding identifying and reporting on significant
investment portfolios and trading-book exposures.

Other Matter
OCC has a team of five examiners in London that assist with
targeted examinations at several large banks with foreign offices.
In addition to JPMC, OCC supervises five other U.S. banks with
operations in London: Bank of America, N.A.; Citibank, N.A.; Wells
Fargo Bank, N.A.; Capital One Bank, N.A.; and BlackRock
Institutional Trust Company, N.A. Although the London examiners
do not perform dedicated ongoing supervision, according to OCC

OCC Needs to Strengthen Supervision of Trading Activities in Light of   Page 12
the JPMorgan Chase Trading Losses (OIG-14-035)
           officials, they discuss topics with London bank personnel to
           support on-site supervision performed in the U.S. OCC officials told
           us that the London examiners could potentially be used more
           efficiently and that OCC is looking at ways to assess its global
           footprint.


Recommendations
           We recommend that the Comptroller of the Currency take the
           following actions:

               1. Ensure that examiners review bank reports and obtain
                  satisfactory explanations when those reports show
                  significant signs of increasing risk in trading activities.

                   Management Response

                   Two objectives of the ongoing monitoring procedures
                   (included in the supplemental procedures issued on March
                   24, 2014) focus on identifying new or changing risks related
                   to trading and end-user activity. Examiners are required to
                   review on a regular basis reports of the bank’s trading
                   operations. The procedures for large complex trading
                   operations instruct examiners that daily review of profit and
                   loss and limit breaches will generally be appropriate,
                   supplemented by weekly reviews of position limits, limit
                   usage, and stress results.

                   OIG Comment

                   OCC’s corrective action is responsive to the recommendation
                   to the extent that examiners obtain explanations for
                   significant signs of increasing risk revealed by their reviews.

               2. Amend OCC policies and procedures to clarify that
                  examiners should follow up on MRAs no later than during
                  the next supervisory cycle, or sooner as dictated by the
                  urgency of the examination finding.




           OCC Needs to Strengthen Supervision of Trading Activities in Light of   Page 13
           the JPMorgan Chase Trading Losses (OIG-14-035)
                              Management Response

                              OCC stated that while it does have guidance in place that
                              addresses follow-up on MRAs, the guidance does not set
                              time parameters. Two steps in the supplemental procedures
                              issued by OCC address this. Examiners are required to assign
                              a date by which a MRA must be resolved and they must
                              ascertain the status of the MRA on a quarterly basis. If a
                              bank fails to resolve the MRA by the due date, and does not
                              have adequate justification for that failure, examiners are
                              instructed to reflect that failure in their core assessments
                              and the management component of the CAMELS rating 12
                              and to consider whether an enforcement action may be
                              warranted.

                              OIG Response

                              OCC’s corrective action is responsive to the
                              recommendation.

                          3. Ensure that examiners follow up on findings or concerns
                             with a bank’s internal audit office and expand the review of
                             the internal audit function, as necessary, to determine
                             effectiveness.

                              Management Response

                              In the context of end-user derivatives and trading activity,
                              the second objective of the minimum scope section of the
                              supplemental procedures is devoted entirely to
                              internal/external audit. It requires examiners to determine the
                              appropriateness of the audit function for the bank’s end-user
                              and trading activities. The last objective of the ongoing
                              monitoring section is to determine that the bank addresses
                              promptly deficiencies and weaknesses related to end-user
                              derivatives and trading activity that internal or external
                              auditors have identified.

12
  Auditor’s Note: Federal banking agencies use the Uniform Financial Institutions Rating System, or
“CAMELS,” to assign composite and component ratings to financial institutions. An institution’s
composite CAMELS rating integrates ratings from six component areas—capital adequacy, asset quality,
management, earnings, liquidity, and sensitivity to market risk. The ratings range from 1 to 5 with
1 being the highest rating and least supervisory concern.


                      OCC Needs to Strengthen Supervision of Trading Activities in Light of   Page 14
                      the JPMorgan Chase Trading Losses (OIG-14-035)
        OIG Response

        OCC’s corrective action is responsive to the
        recommendation.

    4. Improve supervisory coordination with other regulatory
       agencies and consider formalizing any understanding or
       agreement.

        Management Response

        OCC instituted a number of actions to improve supervisory
        coordination with other regulatory agencies, such as making
        interagency coordination a supervisory priority and working
        with FRB and FDIC to coordinate supervisory strategies in
        large bank supervision. In some cases, OCC has entered into
        memoranda of understanding with other agencies to
        formalize the understandings for sharing information and
        coordinating supervision, and OCC will continue to enter into
        such agreements in the future as appropriate.

        OIG Response

        OCC’s corrective action is responsive to the
        recommendation.

    5. Ensure that revisions to the handbook for supervision of
       trading activities communicate to examiners all activities
       required to be performed during both ongoing supervision
       and targeted examinations.

        Management Response

        The supplemental procedures include both minimum scope
        procedures for targeted examinations to assess the
        effectiveness and integrity of risk management systems, and
        ongoing monitoring procedures to identify trading activity,
        end-user derivatives, and trends in risk profiles. As part of its
        roll-out of the supplemental procedures, OCC will issue a
        supervisory memo to all examiners that communicates
        expectations about their use. Examiners of large banks will
        be instructed to begin using these procedures immediately.
        Examiners of midsize banks will use the procedures—

OCC Needs to Strengthen Supervision of Trading Activities in Light of   Page 15
the JPMorgan Chase Trading Losses (OIG-14-035)
                     particularly the procedures related to end-user derivatives—
                     as appropriate for the bank’s complexity and risk profile. The
                     procedures are likely not necessary for examinations of
                     community banks.

                     OIG Comment

                     OCC’s corrective action, taken and planned, is responsive to
                     the recommendation. OCC will need to record the planned
                     completion date for issuing the supervisory memo to
                     examiners in the Joint Audit Management Enterprise System
                     (JAMES), the Department of the Treasury’s audit
                     recommendation tracking system.



                                                 * * * * *

             We appreciate the courtesies and cooperation provided to our staff
             during the audit. If you wish to discuss the report, you may
             contact me at (202) 927-0384 or Theresa Cameron, Audit
             Manager, at (202) 927-1011. Major contributors to this report are
             listed in appendix 3.




             Jeffrey Dye /s/
             Director, Banking Audits
Appendices




             OCC Needs to Strengthen Supervision of Trading Activities in Light of   Page 16
             the JPMorgan Chase Trading Losses (OIG-14-035)
Appendix 1: Objectives, Scope, and Methodology



                   Appendix 1: Objectives, Scope, and Methodology
                   Our objective was to determine and assess the Office of the
                   Comptroller of the Currency’s (OCC) process of supervising bank
                   trading activities, primarily focusing on OCC’s supervision of
                   trading activities at the JPMorgan Chase Bank, N.A. (JPMC) Chief
                   Investment Office (CIO) in London.

                   To accomplish these objectives, we performed the following
                   activities during audit fieldwork conducted from July 2012 through
                   January 2013:

                   •   interviewed OCC examiners for JPMC; Bank of America, N.A.;
                       and HSBC Bank USA, N.A., and other OCC officials and
                       personnel to gain an understanding of supervising bank trading
                       activities

                   •   reviewed OCC’s supervisory guidance on bank trading activities

                   •   reviewed OCC’s supervisory documentation related to JPMC’s
                       trading activities

                   •   reviewed an October 2012 OCC internal report on its
                       supervision of the CIO and of the JPMC losses

                   •   performed research on the Edge Act and Edge entities

                   •   reviewed the report by the Senate Permanent Subcommittee on
                       Investigations titled JPMorgan Chase Whale Trades: A Case
                       History of Derivatives Risks and Abuses (Mar. 15, 2013)

                   •   reviewed other public information, such as documents from the
                       JPMC website, to gain additional information about the trading
                       losses that occurred in 2012

                   We conducted this performance audit in accordance with generally
                   accepted government auditing standards. Those standards require
                   that we plan and perform the audit to obtain sufficient, appropriate
                   evidence to provide a reasonable basis for our findings and
                   conclusions based on our audit objectives. We believe that the
                   evidence obtained provides a reasonable basis for our findings and
                   conclusions based on our audit objectives.




                   OCC Needs to Strengthen Supervision of Trading Activities in Light of   Page 17
                   the JPMorgan Chase Trading Losses (OIG-14-035)
Appendix 2: Management’s Response



      Management




                   OCC Needs to Strengthen Supervision of Trading Activities in Light of   Page 18
                   the JPMorgan Chase Trading Losses (OIG-14-035)
Appendix 2: Management’s Response




                  OCC Needs to Strengthen Supervision of Trading Activities in Light of   Page 19
                  the JPMorgan Chase Trading Losses (OIG-14-035)
Appendix 2: Management’s Response




                  OCC Needs to Strengthen Supervision of Trading Activities in Light of   Page 20
                  the JPMorgan Chase Trading Losses (OIG-14-035)
Appendix 3: Major Contributors to This Report




             Theresa Cameron, Audit Manager
             Dana Duvall, Auditor
             Patrick Gallagher, Auditor
             April Ellison, Auditor
             Gerald Kelly, Referencer




                    OCC Needs to Strengthen Supervision of Trading Activities in Light of   Page 21
                    the JPMorgan Chase Trading Losses (OIG-14-035)
Appendix 4: Report Distribution



                    Appendix 4: Report Distribution
                    Department of the Treasury

                    Deputy Secretary
                    Office of Strategic Planning and Performance Management
                    Office of the Deputy Chief Financial Officer, Risk and Control
                      Group

                    Office of the Comptroller of the Currency

                    Comptroller of the Currency
                    Liaison Officer

                    Office of Management and Budget

                    OIG Budget Examiner




Abbreviations




                    OCC Needs to Strengthen Supervision of Trading Activities in Light of   Page 22
                    the JPMorgan Chase Trading Losses (OIG-14-035)
